Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Review of Wisconsin's Non-Emergency Medical Transportation Costs for Services Provided by American United Taxicab, Inc. for January 1 Through December 31, 2005
August 04, 2008 | Audit A-05-08-00040
Executive Summary
For the period January 1 through December 31, 2005, we estimated that Wisconsin claimed $694,000 ($347,000 Federal share) in Medicaid reimbursement for non-emergency medical transportation services provided by American United Taxicab on dates when beneficiaries did not receive Medicaid-covered services.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS